No: 20-5157
IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
DENARD STOKELING,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
CERTIFICATE OF SERVICE
I certify that on this 16th day of June 2021, in accordance with SUP. CT. R. 29, one copy of
the Supplemental Brief and the Certificate of Service, were served electronically with the Clerk of
the Court using CM/ECF, and sent by third party commercial carrier for delivery upon the Office
of the Solicitor General of the United States, Room 5614, Department of Justice, 950 Pennsylvania
Avenue, N.W., Washington, D.C. 20530-0001.
MICHAEL CARUSO
Federal Public Defender
Fort Lauderdale, Florida
June 16, 2021

By:

s/Brenda G. Bryn
Brenda G. Bryn
Assistant Federal Public Defender
One East Broward Boulevard, Suite 1100
Fort Lauderdale, Florida 33301-1842
Telephone No. (954) 356-7436

